      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




February 23, 2012

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Nebraska Did Not Properly Pay Some Medicare Part B Deductibles and
              Coinsurance (A-07-11-03168)


Attached, for your information, is an advance copy of our final report on Nebraska’s Medicaid
payments for dual eligible individuals’ Medicare Part B deductibles and coinsurance. We will
issue this report to the Nebraska Department of Health & Human Services within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to contact me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-03168
in all correspondence.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

February 29, 2012

Report Number: A-07-11-03168

Ms. Vivianne M. Chaumont
Director, Division of Medicaid & Long-Term Care
Nebraska Department of Health & Human Services
301 Centennial Mall South, 3rd Floor
P.O. Box 95026
Lincoln, NE 68509-5026

Dear Ms. Chaumont:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Nebraska Did Not Properly Pay Some Medicare Part B
Deductibles and Coinsurance. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Greg Tambke, Audit Manager, at (573) 893-8338, extension 30, or
through email at Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-11-03168 in
all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Vivianne M. Chaumont


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     NEBRASKA DID NOT
    PROPERLY PAY SOME
     MEDICARE PART B
DEDUCTIBLES AND COINSURANCE




                       Daniel R. Levinson
                        Inspector General

                         February 2012
                         A-07-11-03168
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nebraska, the Department of Health & Human
Services (State agency) administers the Medicaid program.

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
aged 65 and over, people with disabilities, and people with end-stage renal disease. CMS
contracts with fiscal intermediaries, carriers, or Medicare administrative contractors to process
and pay Medicare Part B claims submitted by providers. Medicare Part B covers outpatient
hospital services, physician care, a limited number of prescription drugs, laboratory services, and
other medical services.

“Dual eligibles” are individuals who are entitled to both Medicare and some form of Medicaid
benefits. There are various groups of dual eligibles, including but not limited to Qualified
Medicare Beneficiary (QMB) without full Medicaid (QMB Only), QMB with full Medicaid
(QMB Plus), Specified Low-Income Beneficiary with full Medicaid (SLMB Plus), and Full
Benefit Dual Eligible (FBDE). These eligibility groups are qualified to have their Medicare
Part B deductibles and coinsurance paid for by the Medicaid program.

After the Medicare contractor pays a Medicare Part B claim for a dual eligible and assesses the
Medicare Part B deductibles and coinsurance, the contractor forwards the claim information to
the appropriate State’s Medicaid program. The State Medicaid program determines, based on
the guidelines established in its State plan, whether to pay part or all of the Medicare Part B
deductibles and coinsurance and then pays the provider through the usual Medicaid payment
system. We refer to such claims as crossover claims.

The Nebraska State plan requires coordination of Medicaid with Medicare and provides methods
and standards for the payment of crossover claims. The State plan limits the payment of
Medicare Part B deductibles and coinsurance for QMB Only, QMB Plus, SLMB Plus, and FBDE
beneficiaries to the State Medicaid plan rate for all Medicare Part B services except for
prescription drugs. The State plan also states that the Medicaid program pays for outpatient
clinical laboratory services on the Medicare fee schedule. These two provisions mean that the
State agency pays for Medicare Part B deductibles and coinsurance for prescription drugs and
laboratory services in their entirety rather than being limited by potentially lower State Medicaid
plan rates.

To execute the provisions of the State plan for services whose payments are limited to the State
Medicaid plan rate, the State agency should compare the Medicare payment to the State



                                                 i
Medicaid plan rate for each crossover claim to determine the allowable payment of Medicare
Part B deductibles and coinsurance. Based on this comparison and on the particular eligibility
group, the allowable payment is either (1) the amount by which the State Medicaid plan rate
exceeds the actual Medicare payment, limited to the Medicare Part B deductibles and
coinsurance (for the QMB Only and QMB Plus eligibility groups), or (2) the amount by which
the State Medicaid plan rate exceeds the actual Medicare payment (for the SLMB Plus and
FBDE eligibility groups).

The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$1.6 billion (approximately $1.1 billion Federal share) during fiscal year (FY) 2009 (October 1,
2008, through September 30, 2009). As part of these Medicaid payments, the State agency
claimed approximately $38.0 million (approximately $25.0 million Federal share) for payments
for Medicare Part B deductibles and coinsurance for services whose payments are limited to the
State Medicaid plan rate.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid payments for
Medicare Part B deductibles and coinsurance for services whose payments are limited to the
State Medicaid plan rate in accordance with Federal requirements and the approved State plan.

SUMMARY OF FINDING

During FY 2009, the State agency did not always claim Medicaid payments for Medicare Part B
deductibles and coinsurance for services whose payments are limited to the State Medicaid plan
rate in accordance with Federal requirements and the approved State plan. Specifically, for 68 of
the 100 claims in our sample, the State agency did not limit payment of Medicare Part B
deductibles and coinsurance to State Medicaid plan rates as required under the State plan.

These discrepancies occurred because the State agency did not compare the Medicare payment to
the State Medicaid plan rate. The State agency did not make this comparison because it did not
have policies and procedures requiring it to do so. Based on the results of our sample, we
estimate that the State agency claimed unallowable Medicaid payments of $8,458,600
($5,639,664 Federal share) during FY 2009.

RECOMMENDATION

We recommend that the State agency refund $5,639,664 to the Federal Government for
unallowable Medicaid payments for Medicare Part B deductibles and coinsurance.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our finding or with
the two recommendations in the report.




                                                ii
With respect to our first recommendation, the State agency said that the relevant section of the
Nebraska State plan was amended in 2004 to add hospice services, but with no intention of
changing the payment methodology for payment of Medicare coinsurance and deductibles from
the methodology established prior to the 2004 State plan amendment. The State agency
attributed the change to a “scribe’s error.”

With respect to the second recommendation (which called for the State agency to compare the
Medicare payment to the State Medicaid plan rate to determine the allowable Medicare Part B
deductibles and coinsurance for each crossover claim), the State agency said that it had corrected
the “scribe’s error” by submitting a State plan amendment, which CMS approved on
November 2, 2011.

The State agency’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we removed the second recommendation, but we
maintain that our finding and the remaining recommendation are valid. A “scribe’s error” does
not exempt the State agency from its responsibility to follow the documented and approved State
plan that was in effect during our audit period.

We removed our second recommendation because it is no longer applicable to payments from
July 1, 2011, going forward. The State plan amendment, which CMS approved on November 2,
2011, removes the State Medicaid plan rate limits on the payment of deductibles and coinsurance
for all Medicare Part B services effective July 1, 2011.




                                                iii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Medicaid Program .........................................................................................................1
         Medicare Program .........................................................................................................1
         Dual Eligibles ................................................................................................................1
         Medicaid’s Role in Paying Medicare Part B
          Deductibles and Coinsurance .....................................................................................2
         Nebraska Medicaid Program..........................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................4
         Methodology ..................................................................................................................4

FINDING AND RECOMMENDATION ...................................................................................5

          UNALLOWABLE MEDICAID PAYMENTS CLAIMED ..............................................5
            Federal Requirements ...................................................................................................5
            State Plan Requirements ...............................................................................................6
            Unallowable Medicaid Payments .................................................................................6
            Medicare Payments Not Compared to State Medicaid Plan Rates ...............................7

          RECOMMENDATION ....................................................................................................7

          STATE AGENCY COMMENTS .....................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nebraska, the Department of Health & Human
Services (State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of each State’s
claimed medical assistance payments under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase or
decrease FMAPs at any time. During fiscal year (FY) 2009 (October 1, 2008, through
September 30, 2009), Nebraska’s FMAP ranged from 65.74 percent to 67.79 percent. 1

Medicare Program

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
aged 65 and over, people with disabilities, and people with end-stage renal disease. CMS, which
administers the program, contracts with fiscal intermediaries, carriers, or Medicare
administrative contractors 2 to process and pay Medicare Part B claims submitted by providers.
Medicare Part B covers outpatient hospital services, physician care, a limited number of
prescription drugs, laboratory services, and other medical services.

Dual Eligibles

“Dual eligibles” are individuals who are entitled to both Medicare and some form of Medicaid
benefits. There are various groups of dual eligibles, including but not limited to Qualified
Medicare Beneficiary (QMB) without full Medicaid (QMB Only), QMB with full Medicaid
(QMB Plus), Specified Low-Income Beneficiary with full Medicaid (SLMB Plus), and Full


1
 Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, as amended by P.L. No. 111-226,
States’ FMAPs were temporarily increased for the period October 1, 2008, through June 30, 2011.
2
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.

                                                         1
Benefit Dual Eligible (FBDE). These eligibility groups are qualified to have their Medicare
Part B deductibles and coinsurance paid for by the Medicaid program. 3

Medicaid’s Role in Paying Medicare Part B
Deductibles and Coinsurance

After the Medicare contractor pays a Medicare Part B claim for a dual eligible and assesses the
Medicare Part B deductibles and coinsurance, the contractor forwards the claim information to
the appropriate State’s Medicaid program. The State Medicaid program determines, based on
the guidelines established in its State plan, whether to pay part or all of the Medicare Part B
deductibles and coinsurance and then pays the provider through the usual Medicaid payment
system. We refer to such claims as crossover claims.

For beneficiaries classified in the QMB Only and QMB Plus eligibility groups, States are
mandated to pay Medicare Part B deductibles and coinsurance. Pursuant to section 1902(n)(2) of
the Act, the Medicare payment for a service plus the Medicaid payment for any Medicare
Part B deductibles and coinsurance may exceed the State Medicaid plan rate for the service.
Section 1902(n)(2) also says, however, that a State is not required to pay for Medicare Part B
deductibles and coinsurance on behalf of QMB Only and QMB Plus beneficiaries to the extent
that the Medicare payment for the service exceeds what the State Medicaid program would have
paid on behalf of a Medicaid-only recipient. If a State caps its Medicare Part B deductible and
coinsurance coverage pursuant to section 1902(n)(2) of the Act, and the Medicare payment for a
service is equal to or exceeds the State Medicaid plan rate, the State makes no payment for
Medicare Part B deductibles and coinsurance. If, on the other hand, the Medicare payment is
less than the State Medicaid plan rate for a service, the State pays the Medicare Part B
deductibles and coinsurance up to the difference between the amount paid by Medicare and the
State Medicaid plan rate.

For beneficiaries classified in the SLMB Plus and FBDE eligibility groups, States are not
mandated to pay Medicare Part B deductibles and coinsurance. However, because SLMB Plus
and FBDE beneficiaries are entitled to full Medicaid benefits, they may be entitled to have
Medicare Part B deductibles and coinsurance paid on their behalf when a service is covered by
both Medicare and Medicaid. For Medicaid-covered services, the State agency will pay the
difference between the State Medicaid plan rate and the Medicare payment.

In all cases, the amount paid by the State, if any, is payment in full for Medicare Part B
deductibles and coinsurance.

Nebraska Medicaid Program

In Nebraska, the State agency is responsible for processing crossover claims. Those
responsibilities include establishing systems and internal controls, which include policies and


3
 There are other groups of dual eligible beneficiaries who are not qualified to have their Medicare Part B
deductibles and coinsurance paid for by the Medicaid program: SLMB without full Medicaid, Qualified Disabled
and Working Individual, and Qualified Individual.

                                                      2
procedures to accurately pay Medicare Part B deductibles and coinsurance in accordance with
the State plan.

The State agency must comply with certain Federal requirements pursuant to section 1902(a)(1)
of the Act and implementing regulations (42 CFR § 431.50), which provide that a State plan for
medical assistance is mandatory upon the State and all of its political subdivisions.

The Nebraska State plan requires coordination of Medicaid with Medicare and provides methods
and standards for the payment of crossover claims. The State plan limits the payment of
Medicare Part B deductibles and coinsurance for QMB Only, QMB Plus, SLMB Plus, and FBDE
beneficiaries to the State Medicaid plan rate for all Medicare Part B services except for
prescription drugs. The State plan also states that the Medicaid program pays for outpatient
clinical laboratory services on the Medicare fee schedule. These two provisions mean that the
State agency pays for Medicare Part B deductibles and coinsurance for prescription drugs and
laboratory services in their entirety rather than being limited by potentially lower State Medicaid
plan rates.

To execute the provisions of the State plan for services whose payments are limited to the State
Medicaid plan rate, the State agency should compare the Medicare payment to the State
Medicaid plan rate for each crossover claim to determine the allowable payment of Medicare
Part B deductibles and coinsurance. Based on this comparison and on the particular eligibility
group, the allowable payment is either (1) the amount by which the State Medicaid plan rate
exceeds the actual Medicare payment, limited to the Medicare Part B deductibles and
coinsurance (for the QMB Only and QMB Plus eligibility groups), or (2) the amount by which
the State Medicaid plan rate exceeds the actual Medicare payment (for the SLMB Plus and
FBDE eligibility groups). 4

The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$1.6 billion (approximately $1.1 billion Federal share) during FY 2009. As part of these
Medicaid payments, the State agency claimed approximately $38.0 million (approximately
$25.0 million Federal share) for payments for Medicare Part B deductibles and coinsurance for
services whose payments are limited to the State Medicaid plan rate.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Medicaid payments for
Medicare Part B deductibles and coinsurance for services whose payments are limited to the
State Medicaid plan rate in accordance with Federal requirements and the approved State plan.




4
 Because SLMB Plus and FBDE beneficiaries are entitled to full Medicaid benefits, they may be entitled to have
Medicare Part B deductibles and coinsurance paid on their behalf when a service is covered by both Medicare and
Medicaid.

                                                        3
Scope

We reviewed approximately $38.0 million (approximately $25.0 million Federal share) in
Medicaid payments for services whose payments are limited to the State Medicaid plan rate 5 that
the State agency made and claimed for Federal reimbursement for Medicare Part B deductibles
and coinsurance during FY 2009.

Our objective did not require a review of the State agency’s overall internal control structure.
Therefore, we limited our internal control review to the State agency’s procedures for paying
Medicare Part B deductibles and coinsurance.

We conducted fieldwork at the State agency in Lincoln, Nebraska, in March 2011.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal requirements and the Nebraska State Medicaid plan;

    •    interviewed State agency officials to gain an understanding of their policies and
         procedures for claiming Medicare Part B deductibles and coinsurance;

    •    requested and received from the State agency crossover claim data for paid Medicare
         Part A and Medicare Part B deductibles and coinsurance;

    •    analyzed the crossover claim data and developed a database of payments to providers for
         Medicare Part B deductibles and coinsurance for services whose payments are limited to
         the State Medicaid plan rate totaling 823,790 data records, each equaling 1 crossover
         claim;

    •    selected and reviewed a simple random sample of 100 paid crossover claims from our
         sampling frame of 823,790 crossover claims (Appendixes A and B) and, for each
         sampled crossover claim:

             o reviewed Medicare’s payment and Medicare Part B deductible and coinsurance
               amounts,

             o reviewed the State Medicaid plan rate,

             o compared Medicare’s payment to the State Medicaid plan rate to determine the
               allowable and unallowable (if any) Medicaid payment of Medicare Part B
               deductible and coinsurance amounts, and

5
 We excluded Medicaid payments for prescription drugs and laboratory services because payments of Medicare
Part B deductibles and coinsurance for these services are made in full rather than being limited by potentially lower
State Medicaid plan rates.


                                                          4
           o verified that the beneficiary in question was in one of the four eligibility groups
             (QMB Only, QMB Plus, SLMB Plus, or FBDE) of dual eligibles;

   •   estimated the unallowable Medicaid payments at the lower limit of the 90-percent
       confidence interval (Appendix B); and

   •   discussed our results with State agency officials on July 28, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

During FY 2009, the State agency did not always claim Medicaid payments for Medicare Part B
deductibles and coinsurance for services whose payments are limited to the State Medicaid plan
rate in accordance with Federal requirements and the approved State plan. Specifically, for 68 of
the 100 claims in our sample, the State agency did not limit payment of Medicare Part B
deductibles and coinsurance to State Medicaid plan rates as required under the State plan.

These discrepancies occurred because the State agency did not compare the Medicare payment to
the State Medicaid plan rate. The State agency did not make this comparison because it did not
have policies and procedures requiring it to do so. Based on the results of our sample, we
estimate that the State agency claimed unallowable Medicaid payments of $8,458,600
($5,639,664 Federal share) during FY 2009.

UNALLOWABLE MEDICAID PAYMENTS CLAIMED

Federal Requirements

Section 1902(a)(1) of the Act states: “A State plan for medical assistance must—(1) provide that
it shall be in effect in all political subdivisions of the State, and, if administered by them, be
mandatory upon them ….”

Federal regulations (42 CFR § 431.50(b)(1)) expand upon this provision of the Act by requiring
that the State plan “… will be in operation statewide through a system of local offices, under
equitable standards for assistance and administration that are mandatory throughout the State.”

Section 1902(a)(10)(E) of the Act states that a State plan must provide “for making medical
assistance available for [M]edicare cost-sharing [deductibles and coinsurance] … for qualified
[M]edicare beneficiaries [QMB Only and QMB Plus]….”

Section 1902(n)(2) of the Act states: “… a State is not required to provide any payment for any
expenses incurred relating to payment for deductibles [or] coinsurance … [on behalf of a QMB

                                                5
Only or QMB Plus] to the extent that payment under title XVIII [Medicare] for the service would
exceed the payment amount that otherwise would be made under the State plan [State Medicaid
plan rate] under this title for such service if provided to an eligible recipient other than a
[M]edicare beneficiary.”

Section 1902(a)(30)(A) of the Act states that a State plan must “provide such methods and
procedures relating to … the payment for, care and services available under the plan … as may
be necessary to safeguard against unnecessary utilization of such care and services and to assure
that payments are consistent with efficiency, economy, and quality of care ….”

The Act does not mandate that States pay Medicare Part B deductibles or coinsurance for SLMB
Plus or FBDE beneficiaries. However, because SLMB Plus and FBDE beneficiaries are entitled
to full Medicaid benefits, they may be entitled to have Medicare Part B deductibles and
coinsurance paid on their behalf when a service is covered by both Medicare and Medicaid.

State Plan Requirements

The Nebraska State plan, section 3.2(b), requires coordination of Medicaid with Medicare and
provides methods and standards for payment of Medicare Part B deductibles and coinsurance.
Supplement 1 to Attachment 4.19-B of the State plan limits payment of Medicare Part B
deductibles and coinsurance on behalf of QMB Only and QMB Plus beneficiaries to the amount,
if any, by which the State Medicaid plan rate exceeds the Medicare payment, except for
prescription drugs. The State plan specifies that the State agency pays for the Medicare Part B
deductibles and coinsurance of prescription drugs irrespective of the State Medicaid plan rate.
Supplement 1 to Attachment 4.19-B of the State plan also limits payment of Medicare Part B
deductibles and coinsurance on behalf of SLMB Plus and FBDE beneficiaries to the amount, if
any, by which the State Medicaid plan rate exceeds the Medicare payment, except for
prescription drugs.

Attachment 4.19-B of the Nebraska State plan states that the Medicaid program pays for
outpatient clinical laboratory services on the Medicare fee schedule.

These two provisions mean that payments of Medicare Part B deductibles and coinsurance for
prescription drugs and laboratory services are made in full rather than being limited by
potentially lower State Medicaid plan rates.

Unallowable Medicaid Payments

The State agency did not always claim Medicaid payments for Medicare Part B deductibles and
coinsurance for services whose payments are limited to the State Medicaid plan rate in
accordance with Federal requirements and the approved State plan. Contrary to the provisions of
the State plan, the State agency did not limit payment of Medicare Part B deductibles and
coinsurance by State Medicaid plan rates for 68 of the 100 sampled claims. For those 100
claims, the State agency paid $5,874 but should have paid $4,404, a difference of $1,470 ($981
Federal share).



                                                6
Medicare Payments Not Compared to State Medicaid Plan Rates

The State agency should have compared the Medicare payment to the State Medicaid plan rate to
determine the allowable Medicare Part B deductibles and coinsurance for each crossover claim.
The table below presents three examples, using actual values drawn from the claims we sampled,
for the calculation of allowable Medicare Part B deductibles and coinsurance.

                                        Sample Crossover Claims
                     Medicare                                            Medicaid


                                                                               Allowable
                                                                              Payment for
                                                                               Medicare      Unallowable
                                                                                Part B       Payment for
                        Medicare Part B          State                        Deductibles   Medicare Part B
                        Deductibles and        Medicaid                           and       Deductibles and
Claim     Payment        Coinsurance           Plan Rate       Payment        Coinsurance    Coinsurance
  A           $129                   $32               $97         $32                 $0                $32
  B             60                    19                70          19                 10                  9
  C             76                    53               263          53                 53                  0

Notes:   Claim A: State Medicaid plan rate is lower than Medicare payment.
         Claim B: State Medicaid plan rate is higher than Medicare payment.
         Claim C: State Medicaid plan rate is higher than Medicare payment.

These discrepancies occurred because the State agency did not compare the Medicare payment to
the State Medicaid plan rate. The State agency did not make this comparison because it did not
have policies and procedures requiring it to do so. Based on the results of our sample, we
estimate that the State agency claimed unallowable Medicaid payments of $8,458,600
($5,639,664 Federal share).

RECOMMENDATION

We recommend that the State agency refund $5,639,664 to the Federal Government for
unallowable Medicaid payments for Medicare Part B deductibles and coinsurance.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our finding or with
the two recommendations in the report.

With respect to our first recommendation, the State agency stated: “The section of the Nebraska
state plan that was reviewed by the OIG [Office of Inspector General] was Attachment 4.19-B
Supplemental 1, page two [NE SPA 04-02]. This section of the Nebraska State plan was revised
in 2004 to add hospice services. There was no intention of changing the payment methodology
for payment of Medicare coinsurance and deductibles from the methodology described in NE
SPA 91-24.” The State agency added, “The change to page 2 was a scribe’s error.”

                                                       7
With respect to the second recommendation (which called for the State agency to compare the
Medicare payment to the State Medicaid plan rate to determine the allowable Medicare Part B
deductibles and coinsurance for each crossover claim), the State agency said that it had corrected
the “scribe’s error” by submitting a State plan amendment, which CMS approved on
November 2, 2011.

The State agency’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we removed the second recommendation in our
draft report, but we maintain that our finding and the remaining recommendation are valid.

Section 1902(a)(1) of the Act states: “A State plan for medical assistance must—(1) provide that
it shall be in effect in all political subdivisions of the State, and, if administered by them, be
mandatory upon them ….” Pursuant to section 1903(a) of the Act, once a State plan is approved,
a State becomes eligible to receive Federal reimbursement for a specified percentage “of the total
amount expended … as medical assistance under the State plan.” Only those expenditures for
medical assistance made by a State in accordance with the State plan are eligible for Federal
reimbursement. The Nebraska State plan, Supplement 1 to Attachment 4.19-B, in effect during
our audit period (NE SPA 04-02) limits payment of Medicare Part B deductibles and coinsurance
to the State Medicaid plan rate, except for prescription drugs. The relevant provisions of NE
SPA 04-02 are unambiguous and not open to interpretation. A “scribe’s error” does not exempt
the State agency from its responsibility to follow the documented and approved State plan that
was in effect during our audit period. 6

We removed our second recommendation because it is no longer applicable to payments from
July 1, 2011, going forward. The State plan amendment, which CMS approved on November 2,
2011, removes the State Medicaid plan rate limits on the payment of deductibles and coinsurance
for all Medicare Part B services effective July 1, 2011.




6
 The State agency did not explain what it meant by the term “scribe’s error,” but we note that page 2 of
Supplement 1 to Attachment 4.19-B in NE SPA 04-02 is vastly different in both form and substance from the same
page in NE SPA 91-24.

                                                       8
APPENDIXES
                                                                                                       Page 1 of 2


                   APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicare Part B crossover claims paid by the Nebraska Department
of Health & Human Services (State agency) on behalf of dual eligibles for fiscal year (FY) 2009
(October 1, 2008, through September 30, 2009). Dual eligibles are individuals who are entitled
to both Medicare and some form of Medicaid benefits.

SAMPLING FRAME

We developed a database of paid crossover claims for dual eligibles’ Medicare Part B
deductibles and coinsurance for FY 2009. 1 The initial database received from the State agency
contained 3,632,771 lines of paid crossover Medicare Part A and Medicare Part B claims totaling
$59,689,266.

We excluded the following from the database:

    •    2,325,390 lines of crossover claims worth zero dollars,

    •    51,989 lines of paid crossover Medicare Part B claims for prescription drug services in
         the amount of $2,621,529,

    •    23,240 lines of paid crossover Medicare Part B claims for laboratory services in the
         amount of $635,113, 2 and

    •    15,435 lines of paid crossover Medicare Part A claims in the amount of $18,904,538.

We grouped the remaining line items (which consisted of both debits and credits) by claim
number and summed them by line-paid amount to get a list of crossover claims that the State
agency paid. This eliminated an additional 335,502 line items.

We then excluded 57,425 crossover claims for which the sum of the line-paid amount was equal
to or less than $2. The remaining crossover claims constituted our sampling frame of 823,790
claims totaling $37,805,792 ($25,236,984 Federal share) for FY 2009, from which we drew our
random sample.




1
  After the Medicare contractor pays a Medicare Part B claim for a dual eligible and assesses the Medicare Part B
deductibles and coinsurance, the claim information is forwarded to the appropriate State’s Medicaid program. We
refer to such claims as crossover claims.
2
  We excluded the paid crossover claim data for prescription drugs and laboratory services from the claim data that
we reviewed because payments of Medicare Part B deductibles and coinsurance for these services are made in full
rather than being limited by potentially lower State Medicaid plan rates.
                                                                                     Page 2 of 2


Each crossover claim shows when the service was provided, who provided the service, who
received the service, the payment made by Medicare, the payment made by the dual eligible, any
copayment, and the remaining Medicare Part B deductibles and coinsurance forwarded to
Medicaid.

SAMPLE UNIT

A sample unit was one crossover claim (for a dual eligible during a given time period) paid by
the State agency.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units (claims) for review.

SOURCE OF THE RANDOM NUMBERS

We generated random numbers using the Office of Inspector General, Office of Audit Services,
statistical software RAT-STATS.

ESTIMATION METHODOLOGY

We used the variable appraisal program in RAT-STATS to estimate the unallowable Medicaid
payments for dual eligibles’ Medicare Part B deductibles and coinsurance. Because the Federal
medical assistance percentage (FMAP) matching rate varied from year to year, we also used the
RAT-STATS variable appraisal program to estimate the total FMAP reimbursed to Nebraska for
unallowable dual eligibles’ Medicare Part B deductibles and coinsurance. We calculated the
FMAP amount for each sample item by applying the applicable FMAP rate to the total amount
determined to be in error for the sample item.
           APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                              SAMPLE RESULTS

                                       Number      Total        Value of
              Value of        Sample     of       Value of       Errors
Frame Size     Frame           Size    Errors     Sample     (Federal Share)

 823,790     $37,805,792       100       68        $5,874        $981

      ESTIMATES OF UNALLOWABLE MEDICAID PAYMENTS
         (Limits Calculated for a 90-Percent Confidence Interval)

             Point estimate                     $8,078,822
             Lower limit                         5,639,664
             Upper limit                        10,517,980
                                                                                              Page 1 of 11


            APPENDIX C: STATE AGENCY COMMENTS



DHHS
NEBRASKA
                       Division of Medicaid and Long-Term Care                           State of Nebraska
                                                                                       Oaw Heineman. Governor



  January 27, 20 12

  Patrick J. Cogley
  Regional Inspector General for Audit Services
  Offke of Inspector General
  Department of Health and Human Services, Region VII
  601 East l 2'h Street, Room 0429
  Kansas City, Missouri 64106

  RE: Report Number A-07-1 1-03168

  Dear Mr. Cogley:

  The Nebraska Department of Health and Human Services (DHT-IS) Division of Medicaid
  and Long-Term Care is pleased to have the oppmiunity to respond to the Draft Audit
  Report entitled Nebraska Did Not Properly Pay Some Medicare ParI B Deductibles and
  Coinsurance. OHHS strives to report Medicaid expenditures in compliance with current
  Federal and State law, policies, and procedures and is committed to working to resolve
  issues identified in this audit review.

  DHHS' specific responses to each of the preliminary findings and recommendations
  identified in the Draft Audit Report follow:

  OIG FINDING: During FY 2009, the State agency did not always claim Medicaid
  payments for Medicare Part B deductibles and coinsurance for services whose payments
  are limited to the State Medicaid plan rate in accordance with Federal requirements and
  the approved State plan. Specifically, for 68 of the 100 claims in our sample, the State
  agency did not limit paymcnt of Medicare Pail B deduclibles and coinsurance to State
  Medicaid plan rates as required under the State plan.

  O/G RECOMMENDATION #1: Refund $5,639,664 to the Federal Governmen t for
  unallowable Medicaid payments for Medicare Part B deductibles and coinsurance.

  DHHS RESPONSE: DHHS does not concur with this finding or recommendation. The
  section o[the Nebraska state plan that was reviewed by tllC OIG was Attachment 4.19-B
  Supplemental 1, page two. This section orthe Nebraska state plan was revised in 2004 to
  add hospice services. There was no intention of changing the payment methodology for
  payment of Medicare coinsurance and deductibles [TOm the methodology described in NE
  SPA 91-24. The intention ofNE SPA 04-02 is clearly indicated in the subject field for
  NE SPA 04-02 on the form 179 (see attached form 179 for NE SPA 04-02). The change
  to page 2 was a scribe's error.

  The fact that Medicaid correctly pays the Medicare coinsurance and deductible amount is
  further demonstrated by the change to Item 1, page 3 of Attachment 4.19-B Supplement I
                                  Helping People Uve Belter Lives
                                  No ~""'" ()pporWftTyIMrInaf>e Acion ~
                                       prinled wfIh soy In!:; on tK)"decI piper
                                                                                             Page 2 of 11




(NE SPA 10-09). Page three of Attachment 4.19-B, Supplement I , Item I describes a
special rate method for nursing faci lity services, to limit payments to State plan rates.
There would have been no need to change page three if in fact the State was paying the
State Medicaid plan rate already.

OIG FINDING #2: The State agency should have compared the Medicare payment
to the State Medicaid plan rate to determine the allowable Medicare Part B
deductibles and coinsurance for each crossover claim.

OIG RECOMMENDATION #2: Develop and implement policies and procedures to
ensure that it compares the Medicare payment to the State Medicaid plan rate to
determine the allowable Medicare Part 8 dcductibles and coinsurance for each crossover
claim that is limited to the State Medicaid plan rate.

DHHS RESPONSE: DHHS does not concur with this finding or recommendation. To
correct the scribe's error to NE State plan Attachment 4.19-B, Supplement I, Page 2, the
State agency submitted NE SPA 11-27. The scribe's error has been discussed with the
Centers for Medicare and Medicaid Services (CMS) and eMS approved the correction,
November 2,2011 (see enclosed letter).

Should you have any questions, do not hesitate to contact me.

Sincerely,


~'tt<Mu Ja~
Vivianne M. Chaumont, Director
Division of Medicaid and Long-Tenn Care
Department of Health and Human Services

Attachment
                                                                                              Page 3 of 11




       R.viaion: KCFA-PM-U-          I,    (IPD)           Suppl.ment I · to ATTACHMENT 4.19-8
                  AUGUSTlUl                                pa;. 1
                                                           OMS No.   I   DUB­

                    stATE PLAN UNDER TITLE XIX OF THE SOCIAL IECUR.l'I'Y ACT
                                                     Nebraska
                    METHODS AND S'l'ANl)ARDS POR ESTABLISHING PAYMENT RATES
                                               OTHER TYPES OF CARE
                roym.nt        of   ".di~.[.    Port • end fort I p.due\ibl./cpln,urens.



             !xe'pt tor • fiominal recipient copoyment Ca• • peelfl.~ In Attachment
             •• 18 of thl. Stat. plan), If applicable, the M.dlca1d 'g.ncy u••a the
             following ;.n.ral ••thod for p.~pt l
              1., 	 'aple'nt. ar. limited to Stat. plan         rot•• and payment . .thodologie• .
                    for the groups and paya.nt. li.ted below and d •• ignoted with the
                    let.ter. "S'''.
                    Por specific M.dlcer•••rvicea which ar. not oth.rwl•• cov.red ~
                    this State pIon, the M,dlCald ag,ncy uI.a M.dlear. peyment rate.
                    un 1••• a apecial rot. or ~thod 1••et out on Page J in item ___ of
                    thi8 attachme nt caee J. below).
              2. 	 Payments are up to the full amount of the Mediear. rata for the·
                   group. and payments listed below, and designated with tha letters
                    "MR . ..

              l. 	Payment8 are up to the a~ount of • special rata, or according to •
                  speCial method , de. cribed on Page 3 in item ___ of this attachment,
                  ~or th08e groups and payments listed below and des1gnatad with the .
                  letters "NR".
              4. 	 Any exceptions to the general methods us.d for a particular group or
                   payment are speciUed on Page 3 in item      of this ·attachme.nt (a.e
                   J . 	 above).




       TN 	 No. MS-91-24          Date _JAN
                                         _ _20
                                             __1992
                                                  __                                 NOV 0_I _1YJi
       Super••a.s
       TN No. (new page)
                         Approval                                    Eff.ctlve Dah _ _ __       _ __

                                                                         HeF" ID:   798::2£




I?\"
                                                                                                Page 4 of 11




          «av!Uon: RCFA-PM·91- 4           CIPD)           Supplem.nt 1 to A'l"l'ACHMENT 4 .19-.
                        AUCUSTlUl                          rage 2
                                                           DMI 110.1   oua-
                       STATE PLAN UNDER TITLE XIX 0' THE SOCIAL SECURITY ACT
                       State/Tarrltory:            Nehraska
                       METHODS AND STANDARDS rOR ESTABLISHIBG PAYMEIf'l' RATES ­
                                           OTHER TYPES OF CARE
                     rpypant of "Id!clt. r,rt      & Ind   Part I Qtductibl./cofn'yronc.



          ~.:             'art A   ~    Deductible.    lDL- Coin.uranet
                          Pert B   ~    Deductible.    lnL- Coin.uranca



          Other           Pert A 'lDL- Deductible.     lUl- ,Coinlurence
          Medicaid
          Recipitnts      rart B lDl- Deductibl..      lDL- Coln.uranee



          Dual            'art A   lflL- Deductible.   ~      Coin.uranca
          Eligible
          (QMB Plua)      Part B   ~    Deductible.    ~      Coinsuranc'




          TN No. MS-91-24
          Super••de.      Approval Date __~J~A~il~!_~
                                                    ') _l~,~
                                                           ~~~
                                                             '
                                                                                   t: r ',' I~ ~ ',_-~l
                                                                  Effactive Date _______________
          TN No. (new page'
                                                                       HeFA IDI   7982E




I? '" 

                                                                                                          Page 5 of 11




         Revialonl     HCFA-PM-~l-q               (BPD )               Supplement 1 to ATTACHMENT 4,19-8
                       AUGUST 15191 	                                  Plq. l
                                                                      OMB Ho.    I    0938­

                      STATE PLlN UNDER TITLE XII OF THE SOCIAL SECURITY ACT
                     State/Territory l                            N e braska

                     METHODS AND STANDARDS FOR ESTABLI8HllfG PAYKEHT RATES _
                                                   OTHER TY?ES        or CARE
                    flyment of Htdic're PArt A Ind port I pedyetibl./CoJn'pr,nea




                                                         N/A




        TN No.   HS_9J _ ?4                             JAN 

        Super••d..            Approval Date _~....;;.%..;O.....;;19;;:92::...                    NOV 0 1 1S'1
                                                                                Effective Dote ______________ 

        TN No . 'pew    oue)
                                                                                     HerA 101   7982l ,




17/ 

                                                                                                                           Page 6 of 11




           TRANSMlTIAL AND NonCE OF AfPROVAL OF                        1. TRANSMIITALNUMBBR:               12. STATE
                   STATE PLAN MATERIAL                                            04-002                              Nebraska

( C?R' HEALTH CARE FINANCING ADMINISTRATION                            3. PROGRAM IDENTIFICATION, mLE XIX OF THE
                                                                          SOCIAL SECURITY ACC (MEDICAID)
    TO: REGIONAL AOMIN1STRATOR                                         4. PROPOSED EFFECTIVE DATE
          HEALnI CARE FINANCING ADMINISTRATION                                March I, 2004
          DEPARTMENT OP HEALTH AND HUMAN SERVICES
    .5. TYPE OF PLAN MATERIAL (Check. One):




~~;~~A~ct;            CFR418; SMM. Ch 4, Sect 4306 & 4307; P.L. 105­


                                                                         OR AlTACHMENT (If Applicable):
     Attachment 3.1 -A, Page 7
     Attachment3.1-A, Item 18. Pages 1-3                               Attachment 3.t-A, Page 7
      Attachntent3.1-B, Page 6                                         Attachment 3.1-B, Page 6
     Attachment4.19-B,ltem IS, Page I of2                              Supplement 1 to Attachment 4.19-8, Page 2
    Attachment 4.19-8, Item 18. Page 2 of2
    Supplement 1 to Attacbment4.J9-B, Page 2


       Addition of Hospice Service! 

    J I. GOVERNOR'S REVIEW (Clzed: One):

       o   GOVERNOR'S OFFICE REPORTED NO COMMENT                                      !81 OTHER, AS SPEClPlBD,
(      . D COMMENTS OF GOVERNOR' S OFFICE ENCLOSED                                       Governor has waived review
\        0 NO REPLY RECENED WITHIN 45 DAYS OF SUBMITTAL


                                                                         Marguet Booth
                                                                         mIS-F&S
                                                                         301 Centennial Mall South
                                                                         Lincoln. Nebraska 68509




FORM HCFA-I79 (07-92)
                                                                                                   Page 7 of 11




 Revised: HCFA·PM·91-4       (BPD)                       Supplemenl1 10 ATTACHMENT 4.1 9-B
           August 1991                                                  Page 3
                                                                        OMBNo: 093~

 STATE PlAN UNDER TITLE XIX OF THE SOCIAL SECURITY ACT

State Nebraska

 METHODS AND STANDARDS FOR ESTABLISHING PAYMENT RATES

Payment of Medicare Part A and Part B Deductible/Coinsurance




Special Rate Method

For nursing facility services, except for Skilled Nursing Units in Small Rural Hospitals ("Swing
Beds~), covered under Medicare Part A, payments are limited to State plan rates and payments
according to the following method:

    1) 	 If the Medicare payment amount for a claim exceeds or equals the State plan rate or
         payment for that deim, Medicaid reimbursement will be zero (0).

   2) 	If the State plan rates and payments for a claIm exceeds the Medicare payment amount
       for that claim, Medicaid reimbursement Is the lesser of:

          a) 	 the ·dlfference between the Medicaid State pian rates and payments minus the
               Medicare paym~mt amount; or

          b) 	 the Medicare coinsurance and deductible, if any, for the claim.




TN# NE 1()'09
                              J'J~_0_
                   Approved _ _     8 20111
                                      __               Effeolive   IjUL 0 1 2010
Supersedes
                                                                                                  Page 8 of 11




 Rev/sed; HCFA·PM-91-4      (8PO)                     Supplement 1 toATIACHMENT 4.19-1;i
 April .1993                                                                     Page ,2
                                                                          OMS No. : 093~

                 STATE PLAN UNDER TI1\£ XIX OF THE SOCIAL SECURITY ACT

                                           Slale~

                METHODS AND STANDARDS FOR ESTA8l1SHING PAYMENT RATES
                                     OTHER TYPES OF CARE

                   payment of Medicam Part A and Part B Deductible/Coinsurance


 OMBs:                 Part A.MB.   Dedu~bles           MB. Coinsurance
                       Part B MB Deductible.            MB. Coinsurance    .

Other                  Part. A ME Deductlbles            MR Coinsurance
Medicaid
Beneficiaries          PaM: B   MR Deductlbles          MB. Coinsurance
Dual                   Part A 118 Ded'uctibkls          MR Coinsurance
Eligible
(OMB PI"s)             Part B MR DeductibJes            M.B..Coinsurance




TN #. NE 11·27
Supe""des                    Approval Date NOV,-) 2    2011    Effective Date   "" . 0 1   ZOn.
TN #. MS-OI-02
                                                                                                   Page 9 of 11




       DEPARTMENT OFHBALnt & HUMAN SERVICES
       Centers for Medicare &: Medlcald Services
       601. Ellst 1241 Street, Suite 235 

       Kanus City, Missouri 6n06 


       Division of Medicaid and Q1ildren'e HealJh Operations 

                                                November 4, 2011 



       Refer to: 

       DMCH: BC 

       NE SPA 11-27 



       ViVianne Chaumont, Director 

       Department of Health & Human Services 

       Division of Medicaid and Long Term Care 

       301 Centennial Mall S" 5th Floor       .

       PO BOx 95026 

       Linooln, Nebraska 68509 


       Dear Ms. Chaumont:

       On September 15. 2011 , the Centers for MedJcare & Medicaid Services (eMS) received
       Nebraska's State Plan Amendment {SPA} transmittal #11 -27, WhiCh makes a teennlcal
       oorrectien tp the State Plan regarding the State's payment of cro!,sQver daims.

      . This SPA 11-27 was approved on November 2, 2011 'With an effective date of July 1,
        2011 as requested by the Siate. Enclosed is a oopy of the CMS-179 form, as well as,
        the approved pages for lnoorporation Into the Nebraska Stata plan.

       jf you have any ,questions regaroing this amendment, please contact Barbara
       Cotterman at (816) 426-5925 or Barbara ,Cotterman@cms.hhs.90v.




_-------,-----_~~ttio
                K~  -n-a--I Ad=-min-is-t-ra-t-or-~-----'-----
                                                   for Medicaid and Children's Health Operations

       Enclosure

       cc:    Pat Taft
                                                                                                                                       Page 10 of 11




                                                                                                                              mRM i\PI'KOVED
OD'.'\RTMP.NT OF HEAtTH A;-ID /lUMAN Sl'R V1C)~­
HF.t..L'ill CAnE HNANCING ,\OM INISTRATlo.~                                                =-,-,."-;:=",,"__-.-,,,~O,MB NO. (1'/'8·(lJ93
          TR«.,NSMITTAl. AND NoncE tfFAPPRbVAL                      01~            TRAt4SMrrr.AL "N.UM13E({    }. S'fA ~-­
                    ~-rATE PLAN MATER I A:L                                                      Nli 11 ·21                     Nebrask'l

 FOR: l lR-ALTH CARE nNANCING AOMJNISTRATI'oN                                 f    PROGRAM JDf<NnrICATION: rlTlx xi"x OF "[[ IE             - -­
                                                                                   SOCIAL SECUIUTY ACT (MEOICAID)

"ro:REGIONAL ADMfNISTRATOR                                     -------.--+,~."P.~o~p~o"s"'n6~'rJve nAT1~-'--------­
       I-IEALTH CA ltE FINANCING ADMINISTRATION                                           July 1,201!
       DEPARTMt::N"fOFtO:tAL1'1-1 AND' HUMAN SERVICES
S. TYPE OF PLAN t>'\ ATEftIAL (Ch/!ck Onr:): .
. 0 NIZW STATE PLAt'!                   [j AMENDMENT TO HE CONS,IOE.RED AS Nnw pLAN                                    l'8l AM~~NbMEN"!:___
            GO.MI)U~Tt:;' 11LOCKS 6 THRU I o"IF' THIS "IS AN AM ENDM'E1':lT lSI! (<rille '/i'(1/t;;;;itt;, [V,. "fwh "ml.!ndwml)
"6.FWEP.AL STKmT!1'REG ULATjON CITATION:                                       7. FeDERAL IHmGET fM PACT:

    ND:JCn)(i') +hrWjl..(?» 0+ 4 h.. AG-+                                           ~ ~:~ ~:~                     .~~
 8. PAGE NUMBcR.OPTHEPLAN SECtiON OR ATrACHMENT:                               9. .PAGE"NUMBEROF THE Sl)PERSEDED pLAN SECTION •
                                                                                  GRA.fTACH'MENT (if Appfica/i/c):
 St.IPph::li:lCI1I" I to A(t~chli1crtl .'1.19 •.o, p-';gc 2"




10. SUBJECrOF AMBNDMENT:
    Pu~illeill' of Modic3re Part A and Pllrt 11 Deductib!eJCoinsurunc," ~ cQrrection .to pnge.


  I I (iOVERNOR'S REVT.EW' (Check On.y:
      o  dOVERNOR'S OF,FieE" RtpOrri'EfJ NO COMMENT                                   181 oniER, AS SP~.C1FIE.J.j: 

           cOMM£tfrs OF GOVERNOk.' -S:6Ff)C6,,,E~Ni'iC",LifQ,.SiKEDIT-rU,---_ _ _ _ _ _-,o,""...
                                                                                             "."'m.....o'. .h.-'.' .w="..".,.·,..',-:ev...'..".."_______   

      B
   NO IU:.1-'LY kECEIVEl) WITHlN:43"DAYS OF SIJBMI·rrAL



-"~,,,,,;o;;:d.~~~~i1!,:!~.&"'r&~""'t:--.---~                                     Pafricill (Pat) Taft
_,.,-~:#;~M,.Q!".'!!'~L.--------..---~---I "Ncbrdsk'"
                                           DiviSion of Mcdicaid'& Long-Tenll
                                                      Dcpnrtmcll1-of            Cnro ServIces
                                                                     H.ealth & Human
                          i;W:~M!"",~~!.!el!'l!:TI!'!2.f!'!.._____...j 301 CenienniHI Mnll South
_.,..~~~~~ ~                                                                      Lincoln, 'NE 68509




FORM HCFA-17'J (07-')2)
                                                                                                      Page 11 of 11




Revised : HCFA-PM-91 -4     (BPD)                   Supplemenll 10 ATIACHMENT 4.19-B
April 1993                                                                     Page 2
                                                                        OMB No.: 0938-­

                 STATE PLAN UNDER TITLE XIX OF THE SOCIAL SECURITY ACT

                                         Slate Nebraska

                METHODS AND STANDARDS FOR ESTABLISH ING PAYMENT RATES
                               OTHER TYPES OF CARE

                   Payment of Medicare Part A and Part B Deductible/Coinsurance


QMB,:                  Part A.MB Oeductib\es              MR Coinsurance

                       Part B MB Deductible,              MR Coinsurance

Other                  Part A MR Deductibles              MR Co\nsuran~e
Medicaid
Beneficiaries          Part B MR Deductibles              MR Coinsurance

Dual                   Part A MR Oeductibles              MR Coinsurance
Eligible
(QMB Plus)             Part B MR Deductibles              MR Coinsurance




TN#. NE 11-27
Supersedes                    Approval Dale    NOV jl"   ZUll    Effective Dale   1111_   0 1 20.1+
TN #. MS-04-02
